NO: 19-1245
IN THE
SUPREME COURT OF THE UNITED STATES
SAMUEL KWUSHUE— Petitioner
v.
UNITED STATES OF AMERICA— Respondent(s)
PROOF OF SERVICE
I SAMUEL KWUSHUE do swear or declare that on this date; June 10, 2020, as
required by Supreme Court Rule 29, that I have served the enclosed PETITION FOR
REHEARING on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States
Department of Justice, RM 5616
950 Pennsylvania Ave N.W
Washington, D.C 20530-0001
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 10, 2020.

NO: 19-1245
IN THE
SUPREME COURT OF THE UNITED STATES

SAMUEL KWUSHUE, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent

DECLARATION VERIFYING TIMELY FILING

Petitioner, Samuel Kwushue, pursuant of SUP. Ct. R. 44.2 declares that the
Petition for Rehearing filed in the above styled matter was sent in an envelope via
United States Postal Service for delivery by First class, Express or Priority Mail,
addressed to the Clerk of the Supreme Court of the United States, on the 10th day of
June, 2020, which is before June 20, 2020, the time the petition for rehearing is due.

Union City, Georgia
2020
SAMUEL KWUSHUE
6001 Kahiti Trc, Union City, GA 30291
(404) All 9905

BgceW60
m 1^im

